APPENDIX

A

Case: 19-10726

Date Filed: 03/26/2020

Page: 1 of 11

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-10726
Non-Argument Calendar
________________________
D.C. Docket No. 8:18-cr-00350-SDM-JSS-1

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
SAVANNAH ROLLE,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
(March 26, 2020)
Before WILLIAM PRYOR, JILL PRYOR, and ANDERSON, Circuit Judges.
PER CURIAM:

Case: 19-10726

Date Filed: 03/26/2020

Page: 2 of 11

Savannah Rolle appeals his convictions and 120-month sentence for
possession of a firearm by a convicted felon on two grounds. First, as to his
conviction itself, he argues that the district court plainly erred by failing to inform
him that the government had to prove that he knew he was convicted of a crime
punishable by more than one year before accepting his guilty plea, as the Supreme
Court required in Rehaif v. United States, __ U.S. __, 139 S. Ct. 2191 (2019).
Second, as to his sentence, he argues that the district court erred in finding that he
did not qualify for a reduction in his offense level for acceptance of responsibility
when it found that his case was not “extraordinary” under application note 4 to
§ U.S.S.G. § 3E1.1. We affirm on both grounds and address each in turn.
I. ROLLE’S GUILTY PLEA
Rolle argues that the district court plainly erred by accepting his guilty plea
when he had not been properly apprised of the elements of the offense with which
he was charged. We review the constitutionality of a guilty plea and a Rule 11
violation for plain error when the objection is raised for the first time on appeal.
United States v. Moriarty, 429 F.3d 1012, 1018–19 (11th Cir. 2005). Under plain
error review, the defendant has the burden to show that: (1) an error occurred;
(2) the error was plain; and (3) the error affects substantial rights. United States v.
Monroe, 353 F.3d 1346, 1349 (11th Cir. 2003). If the first three prongs of plain
error are met, we may exercise our discretion to review the error, but only if the
2

Case: 19-10726

Date Filed: 03/26/2020

Page: 3 of 11

error seriously affects the fairness, integrity, or public reputation of judicial
proceedings. Id.
The district court must satisfy the three core objectives of Federal Rule of
Criminal Procedure 11 when conducting a plea colloquy. See Fed. R. Crim. P.
11(b)(1)(G). Rule 11 requires that a district court determine that: (1) the guilty
plea is free from coercion; (2) the defendant understands the nature of the charges;
and (3) the defendant knows and understands the consequences of his guilty plea.
United States v. Zickert, 955 F.2d 665, 668 (11th Cir. 1992). Rule 11 does not
require a district court to list the elements of an offense. United States v.
Presendieu, 880 F.3d 1228, 1238 (11th Cir. 2018); see Fed. R. Crim. P.
11(b)(1)(G).
In United States v. Quinones, we held that, when the district court failed to
ensure that the defendant understood the nature of the charge against him, the
failure was plain error and violated the defendant’s substantial rights. 97 F.3d 473,
475 (11th Cir. 1996), abrogated on other grounds by United States v. Vonn, 535
U.S. 55, 74–75 (2002)). Quinones was later abrogated in part by the Supreme
Court in Vonn, which held that it was improper to limit the analysis of whether a
Rule 11 error occurred or resulted in prejudice by reviewing only the plea colloquy
transcript and that, instead, the “reviewing court may consult the whole record

3

Case: 19-10726

Date Filed: 03/26/2020

Page: 4 of 11

when considering the effect of any error on substantial rights.” See Vonn, 535 U.S.
at 74–75.
The Supreme Court later provided in United States v. Dominguez Benitez a
standard for determining whether a defendant has shown whether a plain error
under Rule 11 affected his substantial rights. 542 U.S. 74, 81 (2004). The
Supreme Court held that a defendant seeking a reversal of his conviction on the
ground that the district court committed plain error under Rule 11 in accepting his
guilty plea must show a “reasonable probability that, but for the error, he would
not have entered the plea.” Id. at 83. The Court also held that the defendant “must
satisfy the judgment of the reviewing court, informed by the entire record, that the
probability of a different result is sufficient to undermine confidence in the
outcome of the proceeding.” Id. (quotation omitted). We applied Dominguez
Benitez and held that when a district court plainly errs by failing to ensure that a
defendant understood the nature of the charges against him, to warrant relief under
plain error review, the defendant still must show a reasonable probability that he
would not have entered a guilty plea but for the error. Presendieu, 880 F.3d. at
1239, 1239 n.3 (holding that the defendant did not make this showing because he
had not cited any evidence indicating that he otherwise would not have pled
guilty).

4

Case: 19-10726

Date Filed: 03/26/2020

Page: 5 of 11

It is unlawful for a person “who has been convicted in any court of[] a crime
punishable by imprisonment for a term exceeding one year” to “knowingly”
possess a firearm or ammunition. 18 U.S.C. § 922(g)(1). In Rehaif v. United
States, the Supreme Court held that “in a prosecution under 18 U.S.C. § 922(g) and
§ 924(a)(2), the government must prove both that the defendant knew he possessed
a firearm and that he knew he belonged to the relevant category of persons barred
from possessing a firearm” when he possessed it. 139 S. Ct. 2191, 2200 (2019).
In United States v. Reed, we affirmed Reed’s conviction for possessing a
firearm as a felon under section 922(g)(1) after the Supreme Court’s decision in
Rehaif. 941 F.3d 1018, 1022 (11th Cir. 2019). We acknowledged that Reed
established errors in his indictment and at trial that Rehaif made plain. Rehaif
made clear that the government must prove that a defendant knew of his status as a
person barred from possessing a gun. The government conceded that error
occurred when Reed’s indictment failed to allege that he knew he was a felon and
when the jury was not instructed to find that Reed knew he was a felon, and
conceded that Rehaif made that error plain. Id. at 1021.
Nevertheless, we concluded that Reed could not show a reasonable
probability that the outcome of his trial would have been different had the
knowledge requirement been included. Id. We opined that to properly evaluate
Reed’s claims of error, we had to view them against the entire record. Id.
5

Case: 19-10726

Date Filed: 03/26/2020

Page: 6 of 11

Specifically, we noted that the record showed that: (1) Reed had been convicted of
8 felonies in state court at the time of his arrest for firearm possession; (2) Reed
stipulated prior to trial that he had previously been convicted of a felony and had
never had his right to possess a firearm restored; (3) Reed acknowledged during his
trial testimony that he knew he was not supposed to have a gun; and (4) the PSI
stated that he had been incarcerated for 18 years prior to the firearm possession,
which Reed did not dispute. Id. at 1021–22. We held that, because the record
established that Reed knew he was a felon, he failed to show that the errors
affected his substantial rights or the fairness, integrity, or public reputation of his
trial. Id. at 1022.
We note, as a threshold matter, that Rolle did not challenge the validity of
his guilty plea before the district court and therefore, as he concedes, his challenge
is subject to review for plain error. See Moriarty, 429 F.3d at 1018–19. We
conclude here, as we did in Reed, that Rolle “has established errors . . . at his trial
that Rehaif made plain.” 941 F.3d at 1021; see Rehaif, 139 S. Ct. at 2200. Rolle
next has to show a “reasonable probability that, but for the error, he would not
have entered the [guilty] plea.” See Dominguez Benitez, 542 U.S. at 83.
Rolle has not met this burden. He does not even argue—much less show—
that he would not have pleaded guilty had he known that the government was
required to prove that he knew that he was a convicted felon. Moreover, in light of
6

Case: 19-10726

Date Filed: 03/26/2020

Page: 7 of 11

the entire record, it seems rather unlikely that Rolle would have changed his guilty
plea with this information.
First, in his sentencing memorandum and at sentencing, Rolle admitted to
having previously served a sentence of 36 months—which shows that, at the time
he possessed the gun, he objectively and subjectively knew that he had been
convicted in any court of a crime punishable by imprisonment for a term exceeding
one year. See 18 U.S.C. § 922(g)(1). Second, Rolle pleaded guilty to the
indictment, which included five separate convictions that were described as
felonies in the § 922(g) count. Third, though Rolle structured his guilty plea such
that he only pleaded guilty to the essential elements of the crime, he affirmed to the
district court that he was not contesting that he was a convicted felon. Fourth,
Rolle did not object to the PSI’s description of the five felony convictions that the
government included in the indictment.1 Fifth, and finally, the fact that Rolle,
while fleeing from a Florida police officer, threw his gun onto the roof of a nearby
house lends itself to a reasonable inference that he knew that his status as a felon
meant that he was not allowed to possess a gun. Accordingly, the argument that
Rolle would have pleaded not guilty but for the plain error is as weak here as it was
in Reed, where the defendant had been convicted of multiple felony convictions in

1

As we explained in United States v. Wade, “[i]t is the law of this circuit that a failure to object
to allegations of fact in a PSI,” like a list of felony convictions, “admits those facts for
sentencing purposes.” 458 F.3d 1273, 1277 (11th Cir. 2006).
7

Case: 19-10726

Date Filed: 03/26/2020

Page: 8 of 11

state court, stipulated that he was a felon, and testified that he knew he was not
supposed to have a gun. 941 F.3d at 1021–22.
Accordingly, Rolle has thus failed to carry his burden under plain error
review of showing that any plain error affected his substantial rights. See
Dominguez Benitez, 542 U.S. at 83; Presendieu, 880 F.3d. at 1239, 1239 n.3.
II. ACCEPTANCE OF RESPONSIBILITY REDUCTION
Rolle’s second argument is that the district court erred by refusing to grant
him a reduction in his sentence for acceptance of responsibility under § 3E1.1. In
reviewing the district court’s application of the Sentencing Guidelines, we review
its legal interpretation of the Guidelines de novo, United States v. Coe, 79 F.3d
126, 127 (11th Cir. 1996), and the factual findings upon which its determinations
are made for clear error. See Moriarty, 429 F.3d at 1022–23. Because the
sentencing judge is in a unique position to evaluate a defendant’s acceptance of
responsibility, the determination of the sentencing judge is “entitled to great
deference on review.” U.S.S.G. § 3E1.1, cmt. n.5. To find the district court’s
decision clearly erroneous, we must have a “definite and firm conviction that a
mistake was committed.” United States v. Rothenberg, 610 F.3d 621, 624 (11th
Cir. 2010) (quotation omitted). The district court’s decision on the acceptance of
responsibility reduction will not be overturned unless the facts in the record clearly
establish that the defendant actually accepted personal responsibility. United

8

Case: 19-10726

Date Filed: 03/26/2020

Page: 9 of 11

States v. Sawyer, 180 F.3d 1319, 1323 (11th Cir. 1999). The defendant bears the
burden of proving he clearly accepted responsibility. Id.
A defendant is entitled to a two-level reduction in his offense level if he
clearly demonstrates acceptance of responsibility. U.S.S.G § 3E1.1(a). With
respect to obstruction of justice enhancements, the commentary to § 3E1.1 states
that:
Conduct resulting in an enhancement under § 3C1.1 (Obstructing or
Impeding the Administration of Justice) ordinarily indicates that the
defendant has not accepted responsibility for his criminal conduct.
There may, however, be extraordinary cases in which adjustments
under both §§ 3C1.1 and 3E1.1 may apply.
U.S.S.G. § 3E1.1, comment. (n.4). “A defendant who enters a guilty plea is not
entitled to an adjustment under this section as a matter of right.” Id. cmt. n.3.
Indeed, more than a guilty plea is required to warrant the reduction for acceptance
of responsibility. See United States v. Wright, 862 F.3d 1265, 1279 (11th Cir.
2006). The entry of a guilty plea combined with a truthful admission of the
conduct comprising the offense charged constitutes significant evidence of
acceptance of responsibility. U.S.S.G. § 3E1.1, cmt. n.3. But those acts may be
outweighed by conduct that is inconsistent with acceptance of responsibility.
United States v. Wade, 458 F.3d 1273, 1279 (11th Cir. 2006).
While a district court has broad discretion to grant or deny a reduction for
acceptance of responsibility, the court errs if it believes it does not have the
9

Case: 19-10726

Date Filed: 03/26/2020

Page: 10 of 11

authority to grant the reduction. United States v. Mathews, 874 F.3d 698, 709
(11th Cir. 2017). We remanded a case for resentencing when we determined that
the district court erroneously believed that a defendant’s failed drug test meant
that, as a matter of law, it did not have the authority to grant the acceptance of
responsibility adjustment. Id.
As an initial matter, the district court’s determination that Rolle was not
entitled to an acceptance of responsibility reduction should be reviewed for clear
error only. Rolle’s argument that he is entitled to de novo review fails because he
inaccurately asserts that he is challenging the district court’s interpretation and
application of the Guidelines. As a practical matter, Rolle is solely challenging the
district court’s factual finding—not its legal interpretation of the applicable
Guidelines. Accordingly, Rolle must show that the district court clearly erred in
finding that he had not accepted responsibility for his conduct and his
circumstances were not extraordinary.
It was not clear error for the district court to find that Rolle’s conduct that
led to the obstruction of justice enhancement—his failure to appear at a show cause
hearing regarding his multiple pretrial violations—outweighed his admission of
guilt and was inconsistent with an acceptance of responsibility adjustment. See
Wade, 458 F.3d at 1279. Accordingly, the district court did not clearly err in

10

Case: 19-10726

Date Filed: 03/26/2020

Page: 11 of 11

finding that Rolle’s case was not extraordinary and denying Rolle a reduction for
acceptance of responsibility.
AFFIRMED.

11

B

Case 8:18-cr-00350-SDM-JSS Document 60 Filed 02/25/19 Page 1 of 9 PageID 244

Case 8:18-cr-00350-SDM-JSS Document 60 Filed 02/25/19 Page 2 of 9 PageID 245

Case 8:18-cr-00350-SDM-JSS Document 60 Filed 02/25/19 Page 3 of 9 PageID 246

Case 8:18-cr-00350-SDM-JSS Document 60 Filed 02/25/19 Page 4 of 9 PageID 247

Case 8:18-cr-00350-SDM-JSS Document 60 Filed 02/25/19 Page 5 of 9 PageID 248

Case 8:18-cr-00350-SDM-JSS Document 60 Filed 02/25/19 Page 6 of 9 PageID 249

Case 8:18-cr-00350-SDM-JSS Document 60 Filed 02/25/19 Page 7 of 9 PageID 250

Case 8:18-cr-00350-SDM-JSS Document 60 Filed 02/25/19 Page 8 of 9 PageID 251

Case 8:18-cr-00350-SDM-JSS Document 60 Filed 02/25/19 Page 9 of 9 PageID 252

